V. OCTOBER 2018.2 Amalgamated Bank Credit
Card Cardmember Agreement
RETAIL INSTALMENT CREDIT AGREEMENT
AGREEMENT TERMS. In this Agreement, the word “Cardmember” means any person who applied
and was approved for a Card. The words “you,” “your” and “yours” mean the Cardmember. If you
have a Union Credit Card, the word “Union” means the union of which the Cardmember is a member
in good standing. The words “we,” “us,” “our,” “ours” and “Bank” mean Amalgamated Bank of
Chicago and its successors or assigns.
CHANGING THIS AGREEMENT. Subject to the limitations of applicable law, we may at any time
change, add to or delete any of the terms and conditions in this Agreement, including, but not limited
to, interest rates and fees and this Changing This Agreement section. Such changes may be based,
in whole or in part, upon factors including, but not limited to, antifraud policies and procedures, your
record of making timely payments and staying within the established Credit Limit on your Account
with us, or your credit score and information contained in your credit report. We will give you notice of
any change, addition or deletion as required by applicable law. As of the effective date, the changed
terms, at our option, will apply to new Purchases, Advances and Balance Transfers and to the
outstanding balances of your Account, to the extent permitted by applicable law.
CREDIT LIMIT. We will grant you credit up to a maximum amount (your “Credit Limit”). You will be
informed of your initial Credit Limit when you receive your Card. Your current Credit Limit will be
shown on each monthly statement. You promise not to exceed your Credit Limit. However, if you
exceed your Credit Limit, we can still charge you for all Purchases, Advances, Balance Transfers,
interest and fees without giving up any of our rights. At our discretion, we may change your Credit
Limit at any time without advance notice to you.
USE OF ACCOUNT. You may use your Account to make Purchases, Advances and Balance
Transfers as described below. Any use of your Account number will be considered to be a use of the
Card. Please sign the Card before you use it. The Card is our property. You must return it to us or
our agent upon request.
1.

Purchases. You may use your Card at participating merchants to purchase goods and
services (“Purchases”). Unless a billing error has been disclosed in your monthly statement,
your account may be debited as a purchase for each copy requested by you of a sale, refund
or cash advance slip.

2.

Advances. You may use your Card or Account to obtain cash loans (“Advances”) from an
authorized automated teller machine (“ATM”), bank or others who agree to accept your Card.
To obtain Advances at authorized ATMs, you must request and use a personal identification
number (“PIN”). You agree to keep your PIN confidential and not write it on or leave it near
your Card. ATM Cash Advance charges are shown on the Account Disclosures Insert and
also are available upon request. We may impose other or different charges for Cash
Advances upon prior notice to you. ATM Cash Advance Limits are shown on the monthly
statement as “Available Cash.” We may change the Available Cash amount from time to time.

55795

You also may obtain Advances by using Credit Checks that we may provide from time to time that
you may use like a personal check to access your Account. Whenever you use a Credit Check, it will
be charged against your Account as an Advance on the date it is received by us. You may not use
your Credit Checks as payment on your Account or any other account you have with us. Credit
Checks will not be returned with your monthly statement but will be identified on it. We will not certify
a Credit Check.
3.

Balance Transfers. You may use your Card or Account to transfer balances from other credit
card accounts to this Account (“Balance Transfers”) by means (including balance transfer
forms) we may make available from time to time. You may not transfer balances from any
other account you have with us.

PROMISE TO PAY. When you use your Account or permit someone else to use it, you promise to
pay the total amount of all Purchases, Advances and Balance Transfers as well as any interest or
fees that may be due under the terms of this Agreement. If your Account is a joint Account, all of you
are bound by this Agreement and each of you jointly and individually promises to pay all amounts
owed to us for transactions made by any joint Account holder.
MONTHLY STATEMENT. We will send you a monthly statement for any billing period in which there
is activity on your Account, or as otherwise required by applicable law. Your monthly statement will
show, among other things, (1) the unpaid balance on your Account at the beginning of the billing
period (the “New Balance”); (2) any Purchases, Advances, Balance Transfers, interest, fees and
other debits posted to your Account in that billing period; (3) any payments and credits posted to your
Account in that billing period; and (4) the minimum payment you must pay and the date your minimum
payment is due (approximately 25 days after the billing date on your monthly statement). We will
send the monthly statement to the address specified on your Application or to the address you
designate from time to time. If this is a joint Account, each of you appoints the other as his or her
agent to designate the address to which we may send your monthly statements and any other
notices.
PAYMENTS.
1.
Minimum Payment; Application of Payments. You must pay at least the minimum payment
shown on your monthly statement each billing period. If the New Balance is more than $15, the
minimum payment is $15 or 2.5% of the New Balance, whichever is greater. The minimum payment
will be rounded up to the nearest dollar. If the New Balance is less than $15, the total New Balance is
due. Any amounts past due or in excess of your Credit Limit will also be added to the minimum
payment. Payment for more than the minimum amount due will be accepted as a single payment for
that month. Any amount over the minimum is not applicable to future amounts due. In accordance
with applicable law, we will choose the order in which payments are applied to your Account.
2.
Skip Payment Options (If You Have A Union Credit Card). We may allow you to skip one or
more minimum payments if one of the following options is applicable to your Account. Interest will
continue to accrue on any unpaid balance in any billing period in which you skip a minimum payment,
but no Late Payment Fee will be imposed on your Account. An election to skip payments under
either option may lengthen the period over which your Account balance must be paid.

55795

a.

Strike Skip Payment: You may skip the minimum payment for those months when you
are on strike if (1) the strike lasts for at least 30 days and is sanctioned by your Union
and (2) your Union notifies us that you qualify for the Strike Skip Payment.

b.

“No-Pay” Option Months: If your Union has chosen “no-pay” option months, you may
skip the minimum payment in those months.

3.
Making Payments. All payments must be in U.S. dollars. All checks must be drawn on funds
on deposit in the United States. Mail your payment to the address shown on your monthly statement.
Your payment will be credited as of the date of receipt by us only if received by 5:00 p.m. (Central
Standard Time). Any payments received after this time will be deemed received by us on the next
business day. Payments made at any location other than the address shown on your monthly
statement could be subject to a delay in crediting. With your payment, include your payment coupon,
which is a portion of your monthly statement. If you do not include your payment coupon, credit to
your Account may be delayed. Delayed crediting may cause you to incur a Late Payment Fee or
additional interest. Payments can also be made online at www.aboc.com or by phone at (800) 3656464. Do not send us cash.
4.
Disputed Payments. You agree not to send us payments marked “paid in full,” “without
recourse” or with similar language. If you send such a payment, we may accept it without losing any
of our rights under this Agreement. All written communications concerning disputed amounts,
including any check or other payment instrument that indicates that the payment constitutes “payment
in full” of the amount owed or that is tendered with other conditions or limitations or as full satisfaction
of a disputed amount, must be mailed or delivered to Amalgamated Bank of Chicago, P.O. Box
A3979, Chicago, Illinois 60690 Attn: Credit Card Disputed Payments. You may also dispute payment
by visiting our Online Banking website and searching for the transaction in question.
OTHER FEES. Subject to limitations and requirements of applicable law, you agree to pay the
following fees:
a.

If applicable, an Annual Fee, which will be billed on your first monthly statement and thereafter
on the anniversary date of your Account until your Account is terminated or cancelled;

b.

A Late Payment Fee is based on your Account balance contained on your most recent
statement if you have not made the required monthly payment by the statement due date. The
late payment fee will be up to $15 for balances up to $99.99, $25 for balances $100 to $999.99
and $35 for balances $1,000 or more, except that the fee will not exceed the minimum
payment due when the payment was late and will exceed $25 only if more than one payment is
late within six billing cycles;

c.

A Transaction Fee for each Advance, including Balance Transfers;

d.

A Returned Payment Fee for any payment that is returned unpaid by your financial institution,
not to exceed the minimum payment due when the payment was returned;

e.

An International Transaction Fee for each transaction made outside the U.S., including returns;

55795

f.

A Copy Fee for each additional copy of a monthly statement or sales receipt we provide at your
request; and

g.

A Rush Card Fee for each card you request be rush mailed to you within one business day if
requested before 1PM CST.

The specific amounts of these fees and any additional terms or conditions related to these fees are
shown on the Account Disclosures Insert.
INTEREST. The monthly periodic rates used to calculate interest on your Account and the
corresponding Annual Percentage Rate (“APRs”), which depend on the type of Card you have (such
as Union, Standard or Gold), are set forth on the Account Disclosures Insert. The monthly periodic
rates and corresponding APRs for each billing period will vary with the market based on the prime
rate published in The Wall Street Journal on the last business day of the preceding month (the “Prime
Rate”). Your monthly periodic rates and corresponding APRs may increase or decrease if the Prime
Rate changes. Changes in the Prime Rate will apply to your entire Account balance and will apply to
the first billing period that includes the first business day of the second month following the change,
for example, if the Prime Rate changes on September 28, and your billing period begins on the 15th of
each month, the new rate will apply to the billing period that begins October 15 because that billing
period includes November 1 (assuming November 1 is a business day). Changes in the Prime Rate
may result in increases or decreases in the amount of interest, minimum payments and/or number of
payments. A business day is any calendar day other than a Saturday, Sunday, or federal holiday.
We may select a new interest rate index if the Prime Rate is not available.
1.
Rate for Purchases. The monthly periodic rate for a billing period for your Purchase balance
is the Prime Rate plus a Margin (set forth on the Account Disclosures Insert), divided by 12 and
calculated to three decimal places and rounded up.
2.
Rate for Advances. The monthly periodic rate for a billing period for your Advance balance is
the Prime Rate plus a Margin (set forth on the Account Disclosures Insert), divided by 12 and
calculated to three decimal places and rounded up.
3.
Rate for Balance Transfers. The monthly periodic rate for a billing period for your Balance
Transfer balance is the Prime Rate plus a Margin (set forth on the Account Disclosures Insert), divided
by 12 and calculated to three decimal places and rounded up.
BALANCE SUBJECT TO INTEREST. We figure the interest on your Account by applying the
applicable monthly periodic rate to the “average daily balance” of your Account (including current
transactions). To get the “average daily balance,” we take the beginning balance of your Account
each day, add any new Purchases, Advances, Balance Transfers or fees, and subtract any payments
and credits and unpaid interest. This gives us the daily balance. Then, we add up the daily balances
for the billing period and divide the total by the number of days in the billing period. This gives us the
“average daily balance.”
WHEN INTEREST BEGINS TO ACCRUE; GRACE PERIOD. Except as provided below, Purchases,
Advances and Balance Transfers begin to accrue interest from the date of the transaction (or, at our
option, from the date they are posted to your Account) and continue to accrue interest until the charge
is paid in full. You will have at least a 25 day grace period (“Grace Period”) on Purchases. This
means you have at least 25 days from the closing date on your monthly statement to pay for new
55795

Purchases before we charge interest on them. However, the Grace Period will apply only in billing
periods when (1) you paid the previous balance in full or (2) you had a previous balance of $0.00 or a
credit balance. (The previous balance is the balance identified as the New Balance on the monthly
statement for the previous billing period.) When the Grace Period applies, we will not impose interest
on (1) any new Purchases if we receive the full New Balance on the monthly statement for that billing
period by the due date shown on that statement or (2) the portion of the Purchase balance repaid if
we receive only part of the New Balance by the due date. There is no Grace Period within which
you can avoid interest on Advances or Balance Transfers.
AUTHORIZATION OF TRANSACTIONS; LIMITATION OF LIABILITY. We are not obligated to
authorize any transaction (including Purchases, Advances, Balance Transfers or Credit Checks)
under the following circumstances or any other circumstances which we deem necessary: (1)
your Credit Limit has been exceeded or would be exceeded by the transaction; (2) you have
failed to pay amounts owed to us when due or have failed to follow any terms of this Agreement;
(3) you have notified us promptly that your Card or Credit Checks have been lost or stolen or may
be used by an unauthorized person; (4) your Account has been closed for any reason; or (5) your
rights under this Agreement have expired or been revoked for any reason. If, in our sole
discretion, we elect to honor a transaction under any of the above circumstances, we may
nevertheless charge the full amount thereof to your Account. We are not responsible for the
failure of any merchant, financial institution or other party to honor your Card or Advance request.
FOREIGN TRANSACTIONS. The credit card association will convert any transaction in foreign
currency into U.S. dollars using an exchange rate for the applicable central processing date that is (1)
selected by the association from the range of rates available in wholesale currency markets, which
rate may vary from the rate the association receives, or (2) the government mandated rate.
MILITARY LENDING ACT. Federal law provides important protections to members of the Armed
Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain participation fees
for a credit card account). You can also call (844) 334-3810 to hear this disclosure orally.
DEFAULT. Subject to limitations required by applicable law, you will be in default if (1) you fail to pay
the full minimum payment on time; (2) you file for bankruptcy; (3) you break one of your promises
under this Agreement; (4) you have a Union Credit Card and the Cardmember is no longer a member
in good standing of the Cardmember's Union; (5) you provide us with any false, misleading,
incomplete or incorrect information or signature; or (6) you die. Upon your default, we may, subject to
the limitations of applicable law and without notice: (1) reduce your Credit Limit; (2) close your
Account and demand immediate payment of the entire outstanding balance and any other fees or
charges that may be imposed under the terms of this Agreement; (3) bring an action to collect all
amounts owed; and/or (4) take any action allowed by law.
COLLECTION COSTS. To the extent permitted by applicable law, you agree to pay all costs and
disbursements, including reasonable attorney's fees, incurred by us in collecting or enforcing your
indebtedness, whether or not a court proceeding is actually commenced. We will bill these costs to
your Account as Purchases.
55795

OTHERS USING YOUR ACCOUNT. You promise to pay for all transactions made by any other
person you authorize to use your Account, whether or not that person exceeded your permission and
whether or not you notified us that the person was using your Account. If someone else is authorized
to use your Card or Account and you want to end that person's privileges, you must let us know in
writing. If he or she has a Card, you must return that Card cut in half with your written notice.
CLOSING YOUR ACCOUNT. You may close your Account at any time by notifying us in writing and
returning your Card(s) cut in half. You remain responsible to pay the amount you owe us according to
the terms of this Agreement. We may close or suspend your Account privileges at any time and
without prior notice, unless required by applicable law, for any reason we deem appropriate, including
if you are in default under this Agreement. We may also reissue a different Card at any time. Upon
request, you must destroy the Card by cutting it in half and surrendering it to us or our agent. In the
event of the death of an existing Cardmember it is our policy to remove the
Cardmember from the Account and request that the decedent’s Card be destroyed. If the Account is
jointly held we will evaluate various factors relating to the remaining Cardmember to determine if the
Credit Limit should be adjusted as described in the section of this Agreement entitled “Credit Limit”
and “Default”.
ADDRESSES; CHANGE OF ADDRESS. Your full name, address and any signature on your
Application are considered part of this Agreement. For purposes of this Agreement, you agree and
represent that you live at the address shown on your Application or from time to time designated by
you for the receipt of monthly statements. You will notify us of any address change in writing before
the change becomes effective.
DELAY IN ENFORCEMENT; NO WAIVER BY US. We can delay enforcing or waive any of our rights
under this Agreement without losing them. If we waive a right, we do not thereby waive the same
right in other situations.
ASSIGNMENT. We can assign your Account and any of our rights under this Agreement without
consent or notice to you. Your Account, Card, this Agreement and your obligations hereunder are not
transferable or assignable by you.
GOVERNING LAW. This Agreement and your Account will be governed by federal law applicable to
a FDIC insured institution and, to the extent not preempted by federal law, the laws of Illinois, without
regard to its conflicts of law provisions. This Agreement is entered into between you and us in Illinois
and we extend credit to you from Illinois, whether or not you live in Illinois and whether or not you use
your Card in Illinois. We will make the decision whether to open an account for you and issue a Card
to you from our offices in Illinois. All payments under this Agreement are received by us in Illinois.
CREDIT REPORTS AND ACCOUNT INFORMATION. You give us permission to request information
from you and to make whatever inquiries we consider necessary and appropriate (including
requesting a consumer report from consumer reporting agencies) in considering your Application and
for any lawful purpose, including any updates, renewals or extensions of credit, or reviewing or
collecting your Account. Upon your request to us at Amalgamated Bank of Chicago, P.O. Box A3979,
Chicago, Illinois 60690, we will inform you of the name and address of each consumer reporting
agency from which we obtained a consumer report, if any, relating to you. We may also obtain
information about your credit worthiness and employment from others and may furnish information
concerning your Account as well as information concerning you to consumer reporting agencies and
to other proper parties.
55795

NOTICE OF INACCURATE INFORMATION. If you believe that we have information about you that is
inaccurate or that we have reported or may report to a consumer reporting agency information about
you that is inaccurate, please notify us of the specific information that you believe is inaccurate by
writing to us at Amalgamated Bank of Chicago, P.O. Box A3979, Chicago, Illinois 60690 or emailing
us at bankcard@aboc.com.
CONSENT TO COMMUNICATION AND TELEPHONE MONITORING. We, or our agents, may
contact you at any telephone number you provide the Bank, including a cell phone number or a
number you later convert to a cell phone number. You agree that we may communicate with you for
any lawful purpose, including informational, Account services and collections, using (1) any electronic
mail address or cell phone number (including calls and text messages) that you provide to us at the
time of application or in the future and/or (2) an automated telephone dialing system and/or artificial
or prerecorded voice message, even if you are charged for the call or text message under your phone
plan, unless you call us at (800) 365-6464 to limit this consent or reply “STOP” to any text message
from us to stop receiving such text messages. You may contact us any time to change your
preferences. We may listen to and record telephone calls between you and us for the purpose of
monitoring and improving the quality of service you receive.
LOST OR STOLEN CARDS. If your Card is lost or stolen or if you think someone may be using it
without your permission, you must notify us promptly by calling the telephone number on the back of
your card. You may also contact us by email at: bankcard@aboc.com. If the Card is returned to you
after you have notified us, do not use the Card, cut it in half. You will not be liable for any
unauthorized use that occurs after you notify us. You may, however, be liable for unauthorized use
that occurs before your notice to us. You could have up to $500 liability if the loss is not reported
within 2 days of discovery, or unlimited liability if the unauthorized transaction is not reported within 60
days of when the unauthorized use was reported on your periodic statement.
ENTIRE AGREEMENT; SEVERABILITY; INTERPRETATION. The Cardmember Documents
constitute the entire agreement between you and us relating to your Account and supersede any
other prior or contemporaneous agreement between you and us relating to your Account. Except as
otherwise expressly provided, if there is any conflict among these documents, the terms of this
Agreement control. If any part of this Agreement is unenforceable this will not make any other part
unenforceable. The headings used in this Agreement are for the convenience of reference only and
are not intended to define or describe the scope or intent of any portion of the Agreement.
MARYLAND RESIDENTS: You have the right under Section 12-510 of the Commercial Law Code to
receive an answer to a written inquiry concerning the status of your Account. Finance charges will be
imposed in amounts or at rates not in excess of those permitted by law.
NEW JERSEY RESIDENTS: Because certain provisions of this Agreement are subject to applicable
laws, they may be void, unenforceable or inapplicable in some jurisdictions. None of these
provisions, however, is void, unenforceable or inapplicable in New Jersey.
NOTICE TO THE BUYER - 1. DO NOT SIGN THIS CREDIT AGREEMENT BEFORE YOU READ IT
OR IF IT CONTAINS BLANK SPACES. 2. YOU ARE ENTITLED TO A COMPLETELY FILLED IN
COPY OF THIS CREDIT AGREEMENT. 3. YOU MAY AT ANY TIME PAY MORE THAN THE
MINIMUM PAYMENT, OR YOUR ENTIRE BALANCE IN FULL WITHOUT INCURRING ANY
ADDITIONAL CHARGE FOR PREPAYMENT.
55795

RETAIL INSTALMENT CREDIT AGREEMENT
CARDMEMBER: Your signature (including any electronic or digital signature) on any Application or
on any sales slip or other evidence of indebtedness on your Account represents your signature on
this Agreement. Your address on your Application represents your address on this Agreement.
BANK:
Amalgamated Bank of Chicago
P.O. Box A3979
Chicago, Illinois 60690
Date: July 1, 2018
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at Amalgamated Bank of Chicago,
P.O. Box A3979, Chicago, Illinois 60690.
In your letter, give us the following information:
*

Account information: Your name and account number.

*

Dollar amount: The dollar amount of the suspected error.

*

Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:

*

Within 60 days after the error appeared on your statement.

*

At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
55795

2.
Within 90 days of receiving your letter, we must either correct the error or explain to you why
we believe the bill is correct.
While we investigate whether or not there has been an error:
*

We cannot try to collect any amount in question, or report you as delinquent on that amount.

*

The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.

*

While you do not have to pay the amount in question, you are responsible for the remainder of
your balance.

*

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
*

If we made a mistake: You will not have to pay the amount in question or any interest or other
fees related to that amount.

*

If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount that you owe
and the date payment is due. We may then report you as delinquent if you do not pay the
amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the amount you question,
even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

55795

The purchase must have made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)

2.

You must have used your credit card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify.

3.

You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing
at:
Amalgamated Bank of Chicago
P.O. Box A3979
Chicago, Illinois 60690
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.
Amalgamated Bank Credit Card Account Disclosures
These Account Disclosures are part of your Amalgamated Bank Credit Card Cardmember Agreement and contain important information about current
rates and fees applicable to your Account.
Please keep this copy for your records. See the Agreement for additional terms and conditions governing your Account and for definitions of terms used
herein. Disclosures are accurate as of September 2018.

Interest Rates and Interest Charges
Union, Gold and Gold
Secured
Annual Percentage
Rate
(APR) for Purchases

Gold Plus and Union
Plus

Standard

Standard Plus

Standard
Secured

0% introductory APR for 12 months from date of account opening. After that, your APR will be:
11.25%

9.25%

12.75%

9.50%

14.75%

These APRs will vary with the market based on the Prime Rate.
APR for Balance
Transfers

0% introductory APR for 12 months from date of account opening. After that, your APR will be:
11.25%

9.25%

12.75%

9.50%

14.75%

These APRs will vary with the market based on the Prime Rate.
APR for Cash
Advances

16.25%

14.25%

17.75%

14.50%

19.75%

These APRs will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on
purchases if you pay your entire balance by the due date each month. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips
from the Consumer

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Financial Protection
Bureau
Fees
Annual Fee

55795

None for Union, Gold or Standard;
$35 for Union Plus;
$37 for Standard Plus;
$45 for Gold Plus; or
$50 for Gold Secured or Standard Secured

Transaction Fees
•
Cash Advance
•
Balance Transfer

3% of each advance (minimum $5)
3% of each balance transfer (minimum $5)

International
Transaction
Penalty Fees
Late Payment

3% of transaction amount

Returned Payment

Up to $25



Up to $35

How We Will Calculate Your Balance: We use a method called “average daily balance (including new transactions).” See your
account agreement for more details. Billing Rights: Information on your rights to dispute transactions and how to exercise those rights
is provided in your account agreement.

Statement Copy Fee: $5 (none in CO, DC, GA, IN, IA, KS, MD, NC, PA, SC, WV and WY)
Replacement Card Fee: $10 (none in CO, DC, GA, IN, IA, KS, LA, MD, NC, PA, SC, WV and WY; in NY, none for first or
second replacement)
ATM Cash Advance Disclosures
Maximum Advance (per day): $300
Maximum Transactions (per day):
2
Maximum Advances (total): [insert amount}
Interest Rates
Union, Gold and Gold Secured

Gold Plus and Union
Plus

Standard

Standard Plus

Standard Secured

Purchases

Margin

6%

4%

7.5%

4.25%

9.5%

Current Monthly Periodic Rate

0.938%

0.771%

1.063%

0.792%

1.229%

Current Corresponding APR

11.25%

9.25%

12.75%

9.50%

14.75%

Transfers

Margin

6%

4%

7.5%

4.25%

9.5%

Current Monthly Periodic Rate

0.938%

0.771%

1.063%

0.792%

1.229%

Current Corresponding APR

11.25%

9.25%

12.75%

9.50%

14.75%

Advances

Margin

11%

9%

12.50%

9.25%

14.50%

Current Monthly Periodic Rate

1.354%

1.188%

1.479%

1.208%

1.646%

Current Corresponding APR

16.25%

14.25%

17.75%

14.50%

19.75%

55795

